No.

 

 

IN THE
Supreme Court of the United States

BRADLEY LEDURE,
Petitioner,
v.
UNION PACIFIC RAILROAD COMPANY,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

 

PROOF OF SERVICE AND DECLARATION PURSUANT TO SUPREME COURT RULE 29.5(e)

1. Iam over the age of 18 years and am not a party to this action.

2. I certify that on December 10, 2020, at the direction of counsel for Petitioner,
three copies of the Petition for a Writ of Certiorari were served on each party via
First Class mail at the following addresses:

J. Timothy Eaton Thomas E. Jones

Jonthan B. Amarilio THOMPSON COBURN LLP

TAFT STETTINUS & HOLLISTER LLP 525 W. Main Street, Suite 300

111 E. Wacker Drive, Suite 2800 Belleville, IL 62220

Chicago, IL 60601

3. Iswear under penalty of perjury that the foregoing is true and correct.

Executed on this 10th day of December, 2020

th lit tixin

 

Mike McKenzie - HBP Legal - 2818 Fallfax Drive Falls Church VA 22042 - 703 289 9059
